                         Office of Inspector General, USDA
                            Investigation Developments

∽ November 19, 2010 ∽


FARM SERVICE AGENCY: Owners of Mississippi Bioenergy Company Sentenced and
Ordered to Pay $2.9 Million in Restitution for Defrauding Commodity Credit Corporation

An OIG investigation disclosed that the owners of a Mississippi bioenergy company conspired
with one another to defraud the Commodity Credit Corporation (CCC) of $2.9 million by
submitting false claims related to the bioenergy program. One owner pled guilty and the
second was found guilty of all charges at trial. In September 2010, a Federal court in
Mississippi sentenced the owners to prison terms of 26 and 60 months, respectively. The court
also ordered the men to pay $2.9 million in restitution, jointly and severally.

FOOD AND NUTRITION SERVICE: Connecticut Store Owner Sentenced and Ordered to Pay
$148,000 in Restitution for SNAP Trafficking

An OIG investigation revealed that the co-owner of a store in Norwalk had been involved in
Supplemental Nutrition Assistance Program (SNAP) fraud. In October 2010, a Federal court in
Connecticut sentenced the co-owner to 60 months of probation and ordered him to pay
$148,000 in restitution for his part in the fraudulent scheme. The other owner pled guilty in
June 2010 and was sentenced to 8 months of imprisonment, 8 months of home confinement,
and restitution of $148,000.

FARM SERVICE AGENCY: Members and Associates of Texas Cattle Association Enter Into
Pretrial Diversion Agreements for Restitution of $398,000 for Conspiracy and False Claims

An OIG investigation disclosed that six members and associates of a Texas cattle association
filed false claims following Hurricane Rita. They reported combined losses of 876 head of cattle
in order to receive Livestock Indemnity Program (LIP) payments to which they were not entitled.
The claimants were charged with conspiracy and making false claims. One defendant paid
$80,000 in restitution during the investigation. In October 2010 the defendants entered into a
pretrial diversion agreement with a U.S. Attorney’s Office in Texas. Prosecution was deferred
for one year in return for the remaining five defendants paying the $318,000 necessary for full
restitution of the fraudulently obtained LIP payments.

FOOD AND NUTRITION SERVICE: Joint Investigation Results in Georgia Man Sentenced for
Large-Scale Theft of Infant Formula

An OIG investigation conducted with the Food and Drug Administration and the Atlanta Police
Department revealed that two criminal organizations shoplifted approximately $6 million of
infant formula and razors from Atlanta area stores and transported the stolen goods to a New
York City warehouse for storage and subsequent resale. An individual from Georgia pled guilty
to conspiracy and interstate transportation of stolen property. In October 2010, a Federal court
in Georgia sentenced him to 51 months of imprisonment and 36 months probation for his part in
the scheme. Other participants in the scheme have been sentenced to prison terms ranging
from 27 to 65 months. One defendant was sentenced to 6 months of imprisonment after
pleading guilty to storing the stolen baby formula in unsanitary conditions.

RISK MANAGEMENT AGENCY: North Carolina Convenience Store Owner Sentenced, Fined
$35,000 for False Statements Made During Tobacco Fraud Investigation

OIG disclosed that a large number of farmers had hid their tobacco production by selling
tobacco using false names, and then filed false crop insurance claims for alleged losses. OIG
agents determined that approximately $1 million in tobacco sales checks were cashed at the
convenience store during August 2006—October 2007. An individual provided the store owner
with checks made payable to multiple payees. During interviews with OIG agents, the store
owner falsely claimed that the identity of each payee had been verified. In August 2010, a
Federal court in North Carolina sentenced the owner to 60 months of probation and fined him
$35,000 for making false statements during the investigation. More than 20 individuals have
pled guilty as a result of the original and related investigations.

FOOD AND NUTRITION SERVICE: Florida Store Operators Sentenced and Ordered to Pay
Restitution Ranging from $1.9 Million to $2.2 Million for SNAP and Wire Fraud

An OIG investigation conducted with the Miami Police Department found that several
convenience stores in Miami improperly redeemed millions of dollars in SNAP benefits from
January 2004 through March 2010. A Federal court in Florida sentenced two of the store
operators in July 2010 to 48 months of imprisonment. A third store operator was sentenced to
22 months of imprisonment. The court ordered the three operators to pay restitution in
amounts ranging from $1.9 million to $2.2 million for their part in scheme. Upon release from
prison, the store operators will surrender to immigration officials for deportation.

FOOD AND NUTRITION SERVICE: Manager and Former Owner of Detroit Food Store
Sentenced and Ordered to Pay $817,000 for Fraud, Distribution of Controlled Substance, and
Money Laundering

OIG conducted an investigation of a Detroit food store with the Michigan State Police,
Immigration and Customs Enforcement (ICE), and the IRS Criminal Investigation Division. The
investigation disclosed that the store’s former owner and employees had conspired to commit a
variety of illegal acts such as SNAP fraud; Women, Infant, and Children Program (WIC) fraud;
distribution of a controlled substance (khat); and money laundering. The manager and the
former owner pled guilty to wire fraud. In August 2010, both individuals were sentenced by a
Federal court in Michigan to 30 months of imprisonment and were ordered to pay $817,000 in
restitution, jointly and severally.
